m e or I N S P E C T O R Q E N E R A L
OFFICE OF ANALYSIS AND 1NSPECTIONS
             -       -
                    -.     -
                     Office of Ins~ectorGeneral
The mlssicn of the Office of Inspector General (OIG) is to
promote the efficiency, effectiveness and integrity of prograzs
in the United States Department of Health and Human Services
(HHS). It does this by developing methods to detect and prevent
fraud, waste and abuse. Created by statute in 1976, the
Inspector General keeps both the Secretary and the Congress fully
and currently informed about programs or management problems and
recornends corrective action. The OIG performs its mission by
conducting audits, investigations and inspections with
approximately 1,200 staff strategically located around the
country.

                 Office of Analysis and Ins~ections
This report is produced by the office of Analysis and Inspections
(OAI), one of the three major offices within the OIG. The other
two are the Office of Audit and the Office of Investigations.
OAI conducts inspections which are typically, short-term studies
designed to determine program effectiveness, efficiency and
vulnerability to fraud or abuse.-

                               This Re~ort
Entitled "Organ Acquisition Costs: An Overview," this report was
conducted to gain a better understanding of (1) the extent and
nature of Medicare expenditures on kidpey acquisition and (2) the
overall efficiency and economy of the kidney acquisition systems
that exist across the U.S.
This report was prepared by the ~egionalInspector General,
Office of Analysis and Inspections, Region I, Boston,
Massachusetts. Participating in this project were the following
people:
Boston Reqion                                     Headauarters Office
M a ~ kR. Yessian, Ph.D.                             Betty S. Burrier
   (Prc2ect Leader)
Barry McCoy
Eleanor M. Ellis
Rhonda A. Kjersgard
              ORGAN ACQUISITION COSTS:   AN OVERVIEW




RICHARD P. KUSSEROW                                SEPTEMBER 1987
INSPECTOR GENERAL


CONTROL #OAI-01-86-00108
                          TABLE OF CONTENTS


EXECUTIVE SUMMARY       ...................... i
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . .             1

FINDINGS   .......................... 2
     THECOSTPICTURE . . . . . . . . . . . . . . . . . . . .
     COST CONCERNS        . . . . . . . . . . . . . . . . . . . . . 52
           Laboratories . . . . . . . . . . . . . . . . . . . .          6
           K i d n e y Wastage . . . . . . . . . . . . . . . . . . .     9
           Fiscal O v e r s i g h t . . . . . . . . . . . . . . . . . . 11
RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . 1 4 '

APPENDIX I
   BACKGROUND AND METHODOLOGY . . . . . . . . . . . . . . . . 2 0

APPENDIX I1
  METHODOLOGICALNOTES           . . . . . . . . . . . . . . . . . . . 22
APPENDIX I11
  HCFA. AETNA. P H s . AND ASPE COMMENTS ON THE DRAFT REPORT
                           EXECUTIVE SUMMARY

    PURPOSE: To gain a better understanding of (1) the extent and
    nature of Medicare expenditures on kidney acquisition and (2) the
-   overall efficiency and economy of the kidney acquisition systems
    that exist across the United States.
    MAJOR FINDINGS:
    o    ~uringFY 1985, Medicare expenditures on kidney acquisition
         and transplantation were an estimated $240 million. Of
         that total, $102 million, about 43 percent, was for kidney
         acquisition.
    o    Renal transplant centers (RTCts)accounted for about
         one-half of all the kidney acquisition expenditures;
         independent organ procurement agencies (IOPA1s)for about
         two-fifths. However, when only cadaver acquisitions are
         considered, the IOPA1s are dominant. Of the estimated
         $76.5 million in Medicare funds spent on cadaver kidney
         acquisition in FY 1985, IOPA1s accounted for about
         54 percent; RTCts 36 percent.
    o    Thereis widespread variation in the per kidney acquisition
         cost of providers. In one large city dominated by two
         RTCts, one had an average Medicare expenditure of $9,363 per
         transplant in FY 1985 compared with $17,902 for the other.
    o    Most kidney acquisition providers are not functioning
         in a very efficient or economical manner. They tend to
         devote relatively little attention to identifying
         possible cost savings and sometimes tolerate unneces-
         sary duplication and waste. As a result, a substantial
         portion of the ~edicarefunds spent on kidney acqui-
         sition are being spent unnecessarily.
    o    Pretransplant laboratory costs, which account for at
         least 20 percent of Medicare expenditures on kidney
         acquisition, have been growing rapidly and are subject
         to little control.   his is particularly troubling
         because it was found that:
         o    There is widespread variation in pre-
              transplant testing procedures, terminology,
              and costs.
         o    There is a sharp increase occurring in laboratory
              costs being incurred by those on transplant waiting
              lists.
         o    There is unnecessary duplication of pretransplant
              testing.
    o    Kidney wastage rates, though declining, remain high
         especially for hospital organ procurement agencies
         (HOPA1s). For FY 1985, the overall wastage rate was an
         estimated 13.8 percent--16.6 percent for HOPA1s and
         11.7 percent for IOPA1s.
    o   Kidney wastage adds significantly to kidney acquisition
        costs. If, in FY 1985, the wastage rate were 5 percent
        instead of 14 percent, the acquisition cost per cadaver
        transplant would have been $1,381.lessper kidney trans-
        plant--$13,199 instead of'$14,580.
    o    Fiscal oversight of kidney acquisition costs is extremely
         limited. This is especially so with respect to the costs
         incurred by RTC1s.
    o   Among those working on the front lines of organ procurement,
        there is widespread recognition about the looseness of the
        kidney acquisition cost center of RTC's. As one transplant
        surgeon said: I1There1sa lot of padding in the hospital
        kidney acquisition costs.11
    RECOMMENDATIONS
    o   HCFA should amend the current Diagnosis Related Group (DRG)
        for kidney transplantation (DRG 302) .to include all costs
        associated with acquisition as well as transplantation.
        Further, as soon thereafter as possible, it should take the
        same approach with respect to heart, liver, and any other
        type of organ transplant that might be covered under
        Medicare in the future.
    o   In determining the Federal payment rate for the kidney
        acquisition component of the transplant-acquisition DRG,
        HCFA should ensure that it (1) takes into account the
        unnecessary costs reflected in current kidney acquisition
,       expenditures, (2) is based on the cost per kidney trans-
        planted rather than retrieved, and (3) includes living
        related as well as cadaver acquisitions.
    o    HCFA should begin full implementation of the transplant-
         acquisition DRG1s as soon as practical.
    o    HCFA should support some demonstrations of a capitated
         approach to Medicare reimbursement for kidney transplan-
         tation and acquisition.
                          INTRODUCTION
As the number and type of Medicare covered organ transplants have
increased, the cost of acquiring organs has become an increas-
ingly important one for the Federal government. In this report,
we aim to promote a better overall understanding of this cost.
In so doing, we focus on kidney acquisition costs because, as we
address in Appendix I, most of the experience and data are in
that area. The implications, however, extend to organ acqui-
sition and transplantation in general.
Kidney acquisition costs cover a wide variety of pretransplant
services. These services include different kinds of laboratory
tests involving both donors and potential transplant recipients.
They include diverse activities associated with the organ
acquisition process, such as transportation, organ preservation,
and professional and public education. And, they include a broad
range of functions directly associated with the surgical removal
of organs from donors.
The Medicare program pays for these services on the traditional
reasonable cost basis in accordance with procedures spelled out
in detail in a July 1974 Medicare Intermediary Letter (74-23).
As stipulated in the Letter, all Medicare reimbursement for
procurement (acquisition) is to the renal transplant center (RTC)
performing the transplant. That center establishes a standard
acquisition charge for living related donors and one for cadaver
donors; after the close of the hospital's fiscal year, the
charges are aligned with actual costs and any necessary
adjustments are made.
All procurement costs borne by donor hospitals, independent organ
procurement agencies (IOPA1s),and independent laboratories
(IL1s)are passed on to a RTC for payment. Typically, this means
that the bills are provided directly to a RTC. However, in the
case of a donor hospital working with an IOPA, the IOPA reim-
burses the hospital on the basis of its standard charges for the
procedures performed and then incorporates this payment in its
charge to a RTC.
In 1983, when the Health Care Financing Administration (HCFA) was
establishing the Medicare prospective payment system for hospital
inpatient services, it.was planning to include kidney acquisition
services in Diagnosis Related Group (DRG 302), which also
included inpatient services associated with kidney transplant
surgery. However, HCFA decided that because of the ''unique
characteristics of organ procurement activities and the desir-
ability of maintaining an adequate supply of kidneys,!' kidney
acquisition costs would be reimbursed in the traditional fashion,
outside the prospective payment system. This meant that RTC's
could pass through for Medicare reimbursement 100 percent of
their kidney acquisition costs, as long as they were covered and
reasonable.
Since 1983, the incidence of and interest in kidney transplanta-
tion has increased greatly. With the introduction in November
1983 of cyclosporine, a powerful immunosuppressive drug, and
significant improvements in graft survival rates, kidney trans-
plantation has become increasingly prominent and popular.
From CY 1983 to 1985, the annual incidence of kidney transplants
increased 26 percent (from 6,112 to 7,695) and transplant waiting
lists increased by 36 percent (from 7,176 to 9,791). During the
same period, the number of Medicare certified IOPA1srose by
50 percent (from 36 to 54), IL1sby 35 percent (26 to 35), and
RTC1s by 14 percent (156 to 178).
Obviously, during this period of substantial growth there has
been a major increase in kidney acquisition costs. But, because
of fragmented, incomplete, and sometimes incorrect data bases,
strikingly little is known about the extent or nature of these
costs.
In this report, the third in a series of reports concerning organ
acquisition systems, we examine the Medicare costs being incurred
for kidney acquisition.   First, by piecing together strands of
data from different sources, we seek to offer some reasonable
estimates of the scope and dimensions of these costs. Second, on
the basis of extensive field work and the review of scores of
materials (see Appendix I), we aim to provide some insight on the
overall efficiency and economy of the kidney acquisition systems
that exist across the United States. Finally, we close with some
recommendations directed to HCFA.
                            FINDINGS
THE COST PICTURE
We estimate that during FY 1985, the Medicare program spent about
$240 million on kidney acquisition and transplantation. About
$138 million of that was for transplantation (DRG 302). The
remaining $102 million, about 43 percent of the total, was for
acquisition. For each transplant performed, the average Medicare
expenditure was about $20,000 for inpatient expenses associated
with the operation and about $14,800 for acquisition c0sts.l
The $102 million expenditure was incurred by three major types of
providers: renal transplant centers (RTCVs),independent organ
procurement agencies (IOPA1s),and independent laboratories
(IL1s) Among them, the RTC1s accounted for the most sizeable
portion of Medicare kidney acquisition expenditures. As indi-
cated in the chart below, they accounted for an estimated
$52.3 million of such expenditures, slightly more than one-half
of the total. This money covered a wide range of acquisition
costs associated with both living related and cadaver
transplants. (Here and subsequently, the expenditure or
reimbursement totals are Medicare totals for FY 1985 unless
otherwise noted. )
                                    CHART I
                          ESTIMATED MEDICARE KIDNEY
                 RCQUISITION EXPENDITURES, FY 85 CIn Millions?

                             PA's   541.2           IOPfk's   $41.2


                             IL's   $8.6                        IL's   57.7
         RTC's    $52.                      RTC's   $27.
          CADAVER AND LIUING RELATED                CADAVER ONLY


    SOURCE:      Transplant Center Cost Reports
                    and Aetna

    When the universe is narrowed to expenditures for only cadaver
    transplants, which represented about 76 percent of all trans-
    plants, the RTC1s are much less prominent. In this sphere (see
    chart above), RTC's spent an estimated $27.6 million in Medicare
    funds, a little more than one-third of the total. In contrast,
    IOPA1s,which retrieve kidneys only from cadaver donors, spent an
    estimated $41.2 million, about 5 4 percent of the total Medicare
    reimbursement for the acquisition of cadaver kidneys. Indepen-
    dent laboratories, which do work primarily for IOPA1s,but also
    RTC1s, received an estimated $7.7 million (about 10 percent) in
    reimbursements.
     Among the 178 Medicare certified RTC1s at the end of 1985, some
     were actively involved in procuring organs directly rather than
     working strictly through IOPA1s. These RTC1s, often referred to
     as hospital organ procurement agencies (HOPA1s),represented
     slightly less than one-third of all RTC1s and slightly more than
     one-third of all kidney transplants performed in 1985.4 Yet,
     during FY 1985, we estimate that they accounted for about
    , 4 7 percent of the $102.1 million Medicare reimbursement for
i
     kidney acquisition.5
    DO IOPAtsthen tend to be more efficient and economical than
    HOPA1s? Perhaps, but the cost data is not differentiated
    sufficiently to determine the costs for comparable activities and
    thus, to reach any dafiPitive conclusions. For instance, IOPA
    per kidney acquisition costs generally do not include the full
    costs for laboratory work. Indeed, their costs for such work are
    sometimes borne by HOPA1s, thereby adding to the latter's acqui-
    sition costs.
    Unfortunately, there is insufficient historical data available on
    RTC1s to offer much information on trends in the extent or nature
    of kidney acquisition expenditures. All that is available is the
    data compiled by Aetna on the IOPA1s and IL's. As indicated
    below, it shows a considerable increase from 1980 to 1985 in both
    IOPA and IL expenditures. During that period, while the number
of active IOPA1s increased from 20 to 43 and the annual number of
kidneys procured by these IOPA1s increased from 1,817 to 3,961,
total IOPA reimbursable costs (the amount reimburs-
able by RTC1s) increased from $15.9 million to $43.4 million.
Simultaneously, while the number of active IL1s rose from
23 to 31 their total reimbursable costs jumped from $3.9 million
to $10.1 million.
                              CHART I 1
             TOTRL REIMBURSfiBLE C O S T S , I O P R ' s   and I L J s
                          F Y 1980        -
                                         1985
Dollars in Millions




SOURCE:   fie t n a


There is also insufficient data to draw upon to make many useful
generalizations about kidney acquisition cost components. For
instance, from the RTC cost reports, we cannot determine the
amount spent in acquiring living related kidneys compared with
that of cadaver kidneys.
However, from the RTC cost reports and the somewhat more detailed
(and accurate) IOPA cost reports, we can decipher two sizeable
categories of expenditure. One concerns operating overhead; the
other laboratory expenses.
First of all, with respect to operating overhead, the IOPA cost
reports for FY 1985 indicate that the reimbursable cost for
operating overhead is about $21 million. (This includes all of
the "general service cost centerstlIsuch as equipment depreci-
ation, plant maintenance, employee health and welfare, and
administrative costs.) With the total reimbursable cost for that
year at $43.4 million, the overhead rate is thus almost 100
percent. Comparable data is not readily obtainable for the
RTCfs.
Second, in regard to laboratory costs, it can be determined that
at least $20 million of the estimated $102.1 million in Medicare
expenditures for kidney acquisition in FY 1985 were for various
pretransplantation lab tests.   These include three major
categories of tests: for HLA (human leukocyte antigen) typing of
potential donors and potential recipients, for the crossmatching
of serum from potential donors and recipients, and for ongoing
antibody screening of potential recipients.
Finally, in filling out the overall cost picture, it is important
to indicate that even though exact cost comparisons are not
possible with the current data base, there are widespread
variations in the per kidney acquisition cost of different
providers, even in the same community. For instance, in one
major metropolitan area where two RTC1s conduct the great
majority of transplants, one of them had an average Medicare
expenditure of $9,363 per transplant for FY 1985 compared with
$17,902 for the other. In another major urban area having 4
large transplant programs, the Medicare cost per transplant in FY
1985 ranged from $11,289 to $24,161. (In both these areas, the
data is based on audited cost reports.)
Why is there such variation? A key factor certainly is
quantity. Providers acquiring a larger number of kidneys have
more opportunities to achieve economies of scale. But there are
also many other factors that help to explain differential costs
and charges. Among them are variations that exist.in (1) the
wastage of acquired organs, (2) the proportion of non-renal
organs being acquired; (3) the numbek of individuals on a
transplant waiting list; ( 4 ) the type of preservation being used;
and (5) the extent.of administrative overhead costs.
COST CONCERNS
In a financial sense, kidney acquisition systems are now an
anomaly. While the health care system in general is facing major
pressure to become more cost conscious, they remain by and large
free of such pressure. This is because kidney acquisition costs
continue to be reimbursed by Medicare on a I1reasonablecostM
basis. As long as the costs incurred are covered and considered
reasonable, Medicare is obligated to pay for them.
As we became more familiar with the kidney acquisition systems
across the United States, it became increasingly apparent to us
that most of them were not functioning on a very efficient or
economical basis. Although many providers were quite effective
in procuring kidneys, most seemed to devote little attention to
identifying possible cost savings. Worst yet, we found numerous
indications of duplication and waste. ~ u i t eclearly, a
substantial portion of the Medicare funds spent on kidney
acquisition are being spent unnecessarily.
This finding is of particular concern for two reasons. One is
that kidney acquisition systems tend to be the same ones being
relied upon to procure hearts, livers, and increasingly, other
organs and tissues. With Medicare now covering heart and liver
transplants (the latter are only for children under 18 years of
age), the potential financial vulnerability thus extends beyond
the acquisition of kidneys.
The second reason is that the financial stakes are increasing.
The number of individuals receiving kidney transplants and the
number awaiting such transplants have been rising sharply, as we
documented in the introductory section of this report. In the
years ahead, the increases are likely to continue and may even
intensify as "routine requestl1 laws begin to take hold. (At this
writing, at least 26 states have passed such laws.) Thus, before
the end of the decade, Medicare expenditures for organ acqui-
sition could very well approach the $200 million level.
The key question, then, is: on what specific grounds do we base
our finding that kidney acquisition systems tend to be run
without sufficient attention to costs? While there are many
particular examples that support the point, there are three major
ones that have broad based applicability throughout the country.
The first concerns a functional area of expenditure:
pretransplant laboratory services. The second concerns a
phenomenon associated with organ procurement: organ wastage.
The third concerns a vital managerial component: fiscal over-
sight. Each is addressed below.
Laboratories
As indicated earlier, pretransplant laboratory costs account for
at least $20 million (or 20 percent) of all Medicare expenditures
on kidney acquisition. At many RTC1s and IOPA1s,these costs
represent one-third or more of their standard acquisition charge.
Although there is little national information on how these    costs
break down, we do know that they have been growing rapidly    and
have been subjected to little control. The seriousness of     the
matter is suggested by a transplant coordinator at a large    RTC
who commented as follows:
     I1We spend more than $1/2 million a year on laboratory
     tests. Much of it is unnecessary. But no one here
     gives a damn because it's a 100 percent Medicare
     pass-through.
Upon analysis, we find that there are three major elements that
serve to make the current situation a troublesome one. They are
addressed below.
There is widespread variation in metransplant testina proced-
ures, terminolosv, and costs. This is a long-standing phenomena
that to some extent is unavoidable in this dynamic, rapidly
changing field. Yet the degree of variation that currently
exists appears to be hard to justify. Aetna, in a May 12, 1986
memo to independent laboratory directors, noted that there may be
as many as 47 different crossmatch tests being employed.
Further, drawing on 1984 data, it indicated that the cost per
test for the labs it covered ranged from $33 to $264. At one
extreme, Lab A did 799 renal tests for which it was reimbursed
    $210,739 for an average cost per test of $264. At the other Lab
    B did 7,998 tests and received $268,113, for an average of $34
    per test. Aetna added that at present:
         It....    there is no mechanism to determine if these
         laboratories do a comparable amount of work and simply
         count "testsu differently, or if Laboratory B actually
         performed 10 times the work done by Laboratory A at
         only a 27% increase in costs."
    Even for those tests that appear to be identical, one finds
    extensive variation in the reimbursement rates. Antibody
    screens, for instance, range from $40 a test to as much as $175.
    Similarly, HLA A , B and C typing ranges from $44 to $150. One lab
    has a menu of 36 different types of tests,'each with its own
    reimbursement rate. Another does not differentiate the tests and
    costs for billing purposes and instead has a standard laboratory
    charge of $2,000 for each locally transplanted kidney.
    In this situation of extreme diversity, Aetna, the Medicare
    intermediary for the independent laboratories, is in poor
    position to determine whether laboratory costs are, in fact,
    reasonable. ~ecognizingthis reality, it recently established a
    task force of laboratory representatives in an effort to achieve
    some standardization in the nomenclature and to find ways of
    determining a laboratorytsefficiency.
    This effort is an important one, addressing significant issues,
    but the prospect for any significant results in the near term
    appears limited. Moreover, it does not involve the RTC based
    laboratories, which are overseen by whatever Medicare fiscal
    intermediary is responsible for the parent hospital. No com-
    parable effort involving these laboratories is underway.
    There is a sharp increase occurrins in laboratory costs beinq
    incurred by those on transpldnt waitins lists. The precise rate
i
    of increase cannot be determined, but it is clear that these
    costs are rising at an accelerated level. Mainly this is because
    of the growing size of transplant waiting lists (from 5,072 in
    1980 to 9,791 in 1985) and because of the fact that an increasing
    proportion of the lists is composed of highly sensitized individ-
    uals (those with a high level of preformed antibodies). Thus, as
    of June 6, 1986, 40 percent of the 8,610 individuals on the
    national waiting list of the United Network for Organ Sharing
    (UNOS) had a Panel Reactive Antibody level of 60 percent or
    more. This means that they were likely to reject at least 6 of
    every 10 donor kidneys that became available.
    These two developments--the increasing demand for kidney trans-
    plants and the increasing proportion of highly sensitized
    individuals--add to laboratory costs in numerous ways. For new
    transplant candidates, laboratories conduct tissue typing tests
    to determine their HLA (human leukocyte antigen) specificities.
For those on the waiting lists, laboratories typically conduct
monthly antibody screens to determine any changes in a
candidate's level of antibodies. Then, when a donor kidney
becomes available, laboratories usually conduct crossmatch tests
involving serum obtained from the donor and from various can-
didates with compatible blood types. Indeed, in many regional
consortia, the protocol calls for such crossmatches to be
conducted on all highly sensitized candidates with compatible
blood types.
Thus, the accumulated costs for laboratory tests can become quite
significant, particularly for RTC1s with large numbers of sensi-
tized patients on their waiting lists. At most centers, it
appears there are individuals who have been on a waiting list for
years and whose chances of obtaining a transplant grow increas-
ingly remote. At one such center, a laboratory director noted:
"The vast majority of tests here are done on individuals who
never get a transplant."
To get a better sense of the financial consequences of this
situation, let's consider a highly sensitized individual who has
been on a transplant waiting list for three or more years, as is
probably the case for at least 15 to 20 percent of those on such
lists. Aside from the initial tissue typing costs, that individ-
ual may generate costs averaging about $80 a month for monthly
antibody screening and about $300 a month for HLA crossmatching.
Over the course of a year that totals $4,560; over three
years--$13,680.
The underlying point here is not that such individuals should be
removed from the list. Rather, it is that a sizeable ongoing
expenditure has developed with little notice and with hard
questions seldom being asked about how these expenditures might
be curtailed without compromising the humanitarian objectives of
transplant programs. For instance, are more crossmatch tests
being conducted than are necessary? Is once a month antibody
screening needed for everyone? (Some RTC1s now conduct these
tests every second or third month for some individuals.) Are
there some individuals on transplant lists who, for all practical
purposes, are no longer viable transplant candidates and who
should be removed from the lists?
There is unnecessary du~licationof metransplant testinq. In
many areas, RTC1s have agreed to use a single laboratory fox all
their pretransplant work. This has afforded the opportunity to
achieve some economies of scale and to expedite the organ
acquisition process. In other areas, however, RTC1s have refused
to participate in such cooperative efforts and have continued to
operate their own laboratories.
At its worst, this situation can involve numerous RTC labora-
tories that exist in the same metropolitan area and that regu-
larly duplicate one another's work. Such a situation, which is
not precluded under current reimbursement rules, was especially
striking in one large metropolitan area that otherwise features a
highly effective centralized organ procurement operation.
That metropolitan area has five RTC1s, each of which is a medical
school teaching hospital which operates its own tissue typing
laboratory. In harvesting (obtaining) kidneys, each of the RTCts
has agreed to the following protocol: The RTC that harvests the
kidney packs five boxes with a tube of blood, lymphnodes, and
spleen serum from the cadaver donor and sends them to the five
RTC tissue typing laboratories. Each laboratory then conducts
its own HLA typing of the donor serum and its own crossmatching
of that serum with individuals on its own waiting list. The
process not only adds significantly to Medicare kidney acqui-
sition expenditures in the area, but can add up to eight extra
hours to the organ procurement process, meaning that kidneys are
sometimes transplanted as much as eight hours later than would be
the case if there were a single, consolidated laboratory operation.
When asked why this situation is tolerated, a director of one of
the laboratories said, "We can't trust the work of the other
labs." The transplant surgeons who comprise the board of the
IOPA that procures kidneys for each of the RTC8s have not been
inclined to tackle the issue--apparently feeling that it reflects
a delicate balance of power that is best left alone. Further,
another laboratory director asserts that the surgeons have
actually discouraged the lab directors from communicating too
closely with one another because in the highly competitive
situation that exists, they are reluctant to give away any
secrets.
Kidney Wastase
The chart below shows that during the 1980's there has been
significant progress in reducing the rate of kidney wastage in
the United States--both for hospital organ procurement agencies
(HOPA1s)and independent organ procurement agencies (IOPA1s).
Improved organ acquisition systems, a decreased reliance on the
national sharing of kidneys, and an increased readiness to
transplant older kidneys appear to be major factors contributing
to this progress.
                                 CHART I 1 1
                   WASTED CADAVER K I D N E Y S A S PERCENT O F
                         CADAVER K I D N E Y S R E T R I E V E D
    Percent
       35 r                                                        TOTAL
                                                                    I_

                                                                   HOPAJ 5
                                                                    -6-
                                                                   IOPAJ 5
                                                                     -D   -




 SOURCE:      HCFR F a c i l i t y S u r v e y and A e t n a

 Yet, the more significant point may be how high the wastage rate
 remains: 13.8 percent overall, 16.6 percent for HOPAts, and
 11.7 percent for IOPA1s. As Dr. Jeffrey Prottas of the Health
 Policy Center at Brandeis University has indicated, the United
 States rates have been much higher than European rates--by
 margins of 50 to 75 percent.8
 The cost consequences associated with this wastage are signifi-
 cant. If in 1985 the cadaver kidney wastage rate (the proportion
 of harvested kidneys that were not transplanted) had been
 5 percent instead of 14 percent, the kidney acquisition cost per
 cadaver transplant would have been $13,199 instead of $14,580--a
 savings of $1,381 per kidney.   This is in line with Prottasl
 estimate, based on 1982 data, which is that between $1,000 to
 $1,800 of the cost of each kidney transplant can be attributed to
 unused kidneys. lo
 Moreover, -each additional transplant performed results in savings
' over time in Medicare End Stage Renal Disease Program (ESRD)
 costs, by reducing the level of costs incurred by those on
 transplant waiting lists and even more so, by reducing the number
 that would otherwise be receiving dialysis treatments. Thus, a
 5 percent wastage rate in 1985 would have meant that about 550
 additional transplants would have been performed. Over a five
 year period, these additional transplants would have yielded an
 estimated Medicare cost savings of at least $41.2 million.ll
 Why, then, is the wastage rate in the United States so high?
 Prottasl 1984 study identifies poor donor management, surgical
 error, poor preservation, and sharing/matching problems as
 possible sources of wastage. In comparing the Europe and United
 States situations, he explains:
           It...  the Europeans have a far more stan-
           dardized and centralized system for matching
           donors with potential recipients. The
           U.S. computer system of kidney recipients is
           fine as far as it goes, but it operates
           without agreed upon standards and without the
           routine sharing of specimens to permit
           pre-testing of donors and recipients for
           compatibility. As a result it is often hard
           to place organs that cannot be used locally,
           and once placed it is sometimes found that
           they are not immunologically acceptable only
           after the organ has been shipped across the
           country."12
 This conclusion is supported in an article written by
 G. M. Williams et al. and published in the February 1985 issue of
 Transplantation Proceedinas. ~ntitledI1RenalTransplant
 Wastage: An International P r ~ b l e m ,the
                                           ~ article focuses on
 565 kidneys that were excised by members of the United Network
 for Organ Sharing (UNOS) during an 18 month period and that were
 either discarded or sent overseas. It showed that the great
 majority of these kidneys (68 percent) "failed to be transplanted
 in the U.S. because of our inability to identify non-sensitized
 recipients.I1 Among the remaining 32 percent, about one-half were
 lost because of problems the authors regarded as "preventableI1
 and one-half because of what they term as an aggressive procure-
 ment attitude (i.e., a readiness to harvest kidneys even though
 the potential viability of those kidneys may be questionable).
 If in the coming years, the wastage rates continue to decline as
 they have in the recent past, the problem would be largely
 resolved. But this is far from assured. Indeed, some suggest
 that the easy progress has been made and that continued progress
 is unlikely without some significant initiatives.
 It is also important to take into account how wastage rates might
' be reduced. If they were to be reduced through less aggressive
 procurement approaches, then the gains might be offset by the
 loss of transplants that would otherwise have occurred.
 Nevertheless, it appears to be the case that with sufficient
 commitment, wastage rates can be much lower without any adverse
 effect on organ retrieval efforts. This is most especially true
 for RTC1s,which now discard at least one out of every six
 kidneys they retrieve themselves.l3
 Fiscal Oversisht
 Fiscal oversight of   kidney acquisition systems is extremely
 limited. It seldom    involves a search for ways in which
 acquisition efforts   might be carried out in a more efficient or
 economical manner.    Instead, it concentrates on matters of
verification--assuring that identified costs were in fact
incurred and eligible for reimbursement. And even in that
context, its effectiveness is often questionable.
The fiscal oversight that does occur tends to be much less
consequential for the RTC1s than the IOPA1s. In part this may be
because the organ procurement efforts of the former tend to have
less managerial direction than the latter. In a 1982 survey, for
instance, Prottas found that RTC procurement programs tended to
receive only one-sixth of an administrator's time while IOPA1s
generally received much more than that. l4
However, of greater significance is that the oversight that
Medicare intermediaries exert over RTC1s tends to be minimal.
For these intermediaries, the review of a hospital's kidney .
acquisition cost center tends to be one small part of their
overall review of that hospital's Medicare costs. Because of
that and because they have little or no information available to
compare the acquisition costs, their audits of kidney acquisition
costs are seldom exacting.
Among those involved on the front lines of organ procurement--
the transplant coordinators, surgeons, laboratory directors, and
others--there is a widespread recognition about the looseness of
a RTC1s kidney acquisition cost center. In one major metro-
politan area where a number of RTC1s dominate organ procurement,
a group of surgeons representing these RTC's are considering
establishing a centralized IOPA in place of the RTC procurement .
efforts. However they are reluctant to give up the financial
advantages of the current situation. As one of them said, "We
all know that there's some softness on what's in the hospital's
kidney acquisition cost center.''
In another area, a transplant surgeon remarked: "There's a lot
of padding in the hospital's kidney acquisition costs. Personnel
time devoted to other matters is often included in the kidney
acquisition cost center." Similarly, a surgeon in yet another
area said, l1There1sa certain amount of bootlegging that goes on
in ESRD programs,withnon-renal account^.^
Perhaps the strongest testimony in this regard was offered by the
administrative director of an IOPA that used to be a procurement
program within one of the nation's largest teaching hospitals.
He said:
     "When we were part of the hospital, fiscal oversight
     was much more lenient. The fiscal intermediary paid
     little attention to our operation. Now, as an
     independent organ procurement agency, we're subject to
     much more oversight.I1
 This relative neglect, however, is not always to the benefit of a
 RTC1s organ acquisition efforts. As a hospital's administration
 seeks to maximize Federal reimbursement for the kidney acquisi-
 tion cost center, the benefits may very well flow to other
 departments.or to the hospital as a whole, rather than to the
 kidney acquisition component per se. One hospital tissue typing
 laboratory director emphasized this point when he said, "Just
 because we're reimbursed 100 percent doesn't mean the 100 percent
 comes back to us. The financial office keeps as tight a strong-
 hold on us as on other departments." Similarly at the same RTC
 where the chief transplant surgeon said there's a lot of ''boot-
 legging1@going on with the ESRD account, the finance office has
 imposed strict controls on hiring, travel, and purchases. The
 finance director rationalized this treatment as follows:
      "We want to make sure they're efficient, so that we'll
      be ready for any tightening up by the Federal govern-
      ment. I don't manage their account any differently--
      even though it's a pass-through."
 In the sphere of the IOPA1s and IL's, the oversight tends to be
 somewhat more comprehensive and consequential. Stronger mana-
 gerial direction contributes to this situation to some extent,
 but tends to be constrained by the understandings reached by
 surgeon dominated boards. For instance, in the example noted
 earlier where five hospital laboratories regularly duplicate one
 another's work, the IOPA executive director seems to have
 insufficient authority to alter this practice.
  Also responsible for the somewhat more vigorous oversight of the
  IOPA's and ILgs,is that Aetna has served as the single fiscal
  intermediary for them for more than seven years and in doing so
  has built up considerable expertise about kidney acquisition
  costs. Its audits of IOPA1s and IL's appear to be more extensive
  than those that other intermediaries conduct on RTC1s. Drawing
  on its considerable experience in the area, Aetna has established
  certain cost control measures such as limits on payments made for
' professional education and for the surgical excision of kidneys.
  Further, the laboratory task force that it established, has as
  one of its objectives the identification of means for determining
  the overall efficiency of a laboratory operation.
 But even in this sphere of IOPA1s and IL1s, it is important to
 recognize that initiatives fostering efficiency and economy are
 taking place basically at the margin, having little overall
 impact. Thus, with respect to escalating laboratory expendi-
 tures, for instance, Aetna is still a long way from even being
 able to compare the services being performed, let alone to
 determine if their costs are llreasonable.gg
                            RECOMMENDATIONS
    Given the situation described in the previous pages, we feel that
    it is imperative for the Federal government to take action that
    fosters greater efficiency and economy in Medicare funded kidney
    acquisition systems.
    That could be done under the current reasonable cost framework of
    Medicare reimbursement. Under that framework, cost limits could
    be established for a variety of particular activities or, indeed,
    for acquisition activity as a whole. Further, stricter determin-
    ations could be made of covered services, concerning, for
    instance, the type of preservation techniques used or laboratory
    tests performed.
    However, it is important for the Federal government to take an
    approach that is less regulatory and interventionist in nature
    and that offers providers stronger incentives for efficiency and
    economy. In that regard, we expect that over time a capitated
    approach to financing is most desirable and should therefore be
    developed. In the more immediate sense, we regard a prospective
    payment system that allows for some area-based differences in
    costs as the most desirable approach to reimbursement. It en-
    courages cost savings without getting the Federal government
    enmeshed in medical and organizational complexities. And, it can
    be accomplished quickly.
    Thus, as our basic recommendation, we offer the following:
         o    HCFA should amend the current DRG for kidnev
              transplantation (DRG 302) to include all
              costs associated with acquisition as well as
              transplantation. Further, as soon thereafter
              as ~ractical,it should take the same
              approach with respect to heart, liver, and
              any other type of orsan transplants that
              miaht be covered under Medicare in the
?             future.
    Three years ago when the ~edicareProspective Payment System
    (PPS) was established, it was quite proper to exclude kidney
    acquisition costs from that system. With the hospital cost
    report data on kidney acquisition costs being incomplete and
    unreliable, there was insufficient data available to determine
    how to .calculatea DRG incorporating those costs. Moreover, with
    most kidney acquisition programs still quite fragile, there was
    good reason to be concerned that cost generated pressures might
    jeopardize efforts to retrieve organs.
    However, at present that rationale is not as persuasive. First
    of all, the relevant cost data is now available. HCFA has
    revised that portion of the hospital cost reports that concerns
    kidney acquisition so that it provides more detail and captures
all kidney acquisition costs (including those of IOPAfsand
ILfs). Thus, the FY 1985 hospital cost reports, for the first
time, identify overall Medicare reimbursable costs for kidney
acquisition.
Second, kidney acquisition programs have matured and the public
has become more accustomed to organ donation. Although there is
still a shortage of kidneys, the widespread movement to establish
hospital "routine inquiryffprocedures concerning organ donation
could exert a considerable stimulus to the supply of cadaver
organs in the years ahead. At least 26 States have already
passed legislation calling for hospitals to develop "routine
inquiryf1procedures. Further, the Omnibus Budget Reconciliation
Act 1986 included a provision requiring all hospitals partici-
pating in Medicare and Medicaid to establish protocols for
encouraging organ and tissue donation.
Third, in considering why it is now more reasonable to include
kidney acquisition costs under the DRG for kidney transplan-
tation, it is important to recognize that the ~edicareexpendi-
tures for kidney acquisition have increased significantly during
the past three years and are likely to continue to climb, perhaps
at an even faster rate in the years ahead. The financial stakes
are thereby greater and, as we have noted, some worrisome
vulnerabilities have emerged. A DRG incorporating transplan-
tation and kidney acquisition would address these vulnerabilities
and help ensure that both transplantation and acquisition are
conducted efficiently and economically.
Knowing that they would be reimbursed a given amount for each
transplant performed, hospitals with transplant programs would
have a strong incentive to address the hard cost-relevant
questions that now tend to be ignored. Would it be less expen-
sive to acquire kidneys themselves or to acquire them through an
independent organ procurement agency? Are pretransplant labora-
tory tests being performed in the most efficient manner possible
and are they all necessary? Are there economies that can be
achieved by working together more closely and cooperatively?
In this changed financial environment, it is quite likely that in
the metropolitan area having five competing and duplicative
hospital-based tissue typing laboratories, the RTC1s would find a
way to consolidate their laboratory operations, which now account
for more than one-third of their acquisition costs. In the area
where an IOPA has a kidney acquisition charge of about $13,000,
about one-half of which is for administrative overhead, the RTC1s
would almost certainly press the IOPA to reduce its overhead
costs or find an alternative, less costly way to procure
kidneys. In the State where some newly established RTCfs are
establishing their own organ procurement programs rather than
working through a well established IOPA serving the area, these
RTC1s might very well reconsider their actions.
Some individuals who recognize the need for greater cost control
still feel that including kidney acquisition within the trans-
plantation DRG would be unfair. They note that IOPA1s have been
more effective than RTCts in procuring organs and favor a
separate DRG for kidney acquisition that would apply to IOPAtsas
well as RTCts. They suggest that our approach, with its focus on
the RTCts, would enable RTCts to benefit at the expense of
IOPAts.
We do not expect that would generally be the case. As suggested
above, many RTC1s may be confronted with a financial incentive to
work through IOPAts,which may be less costly. Further, IOPAts
and RTCts are not as separate as it may appear. The IOPA board
of directors is typically dominated by transplant surgeons from
one or more RTCts in the area. A single DRG focusing on the
RTCtswould encourage the RTCts to exert more leadership in the
area of kidney acquisition and would make them more clearly and
fully accountable for overall financial management in this area.
Our approach is also in accord with two other important reali-
ties. One is that it is only the RTC that absorbs all the
various costs associated with kidney acquisition. The other is
that there are some spillover effects between acquisition and
transplantation costs. An example is in the area of kidney
preservation. Although ice preservation has become the dominant
practice, some surgeons argue that machine preservation, though
more costly, maintains the kidneys in a healthier state. This,
they add, means that transplant costs are likely to be less than
with ice preservation because the transplant is likely to take
hold quicker, meaning that the need for post-transplant dialysis
is less likely and that the patient is likely to be discharged
more quickly. Thus, some increase in acquisition cost may result
in a decrease in transplantation cost. A DRG linking the two
areas would enable an RTC to realize the savings.
Given that, there are still a number of important details that
HCFA would have to address concerning the implementation of the
proposed DRG. Among the most significant of them would be those
involving the determination of the Federal payment rate for the
kidney acquisition component to be added to the DRG for kidney
transplantation. In that regard, the FY 1985 hospital cost
reports provide the data base for determining the proper rate.
As we noted earlier, these reports indicate that the average
Medicare expenditure per transplanted kidney was about $14,800.
If the proposed DRG were to be derived on a Itbudgetneutralt1
basis, as was the case when DRGtswere introduced in 1983, then
this $14,800 total could provide the basis for the add-on. But a
budget neutral reimbursement system would only incorporate the
inefficiencies we have found into the new system. While there
would be incentives over time to eliminate them, we feel that
they can and should be eliminated from the start.
Another issue in determining the payment rate is deciding wheth
to calculate it on the basis of cost per acquired kidney
(transplanted and wasted) or per transplanted kidney. Some fee
that the former is preferable because it is less likely to
discourage organ retrieval efforts. We prefer the latter
approach because we feel it provides a stronger incentive to
reduce wastage and because RTCvs, on their own accord, have
considerable interest in maintaining as high a level of trans-
plantation as possible.
still another payment-related issue concerns whether acquisition
costs for living related and cadaver organs should be included in
the same DRG. We feel that they should be combined because here
again there are spillover effects between the two cost areas and
because we seek to encourage efficiencies for the transplant
program as a whole. Moreover, it is not clear that the differ-    ,


ential between the two types of cost is sufficient to warrant
separate treatment.
Thus, in accord with the above discussion, we offer the following
recommendation:
          In determinins the Federal Davment for the
          kidnev acauisition com~onentof the
          transvlant-acquisition DRG, HCFA should
          ensure that it 111 takes into account the
          unnecessary costs reflected in current kidnev
          acquisition emenditures, 1 2 ) is based on the
          cost per kidnev trans~lantedrather than
          retrieved, and 1 3 ) includes livins related as
          well as cadaver acquisitions.
Finally, there is the matter of timing--both in the sense of when
the proposed DRG's would be implemented and whether or not there
would be a staged implementation period. When the DRGvswere
first implemented in 1983, the statute called for a three year
transition period during which 'la declining portion of the total
program payment will be based on a hospital's historical costs in
a given base year and a gradually increasing portion will be
based on a regional and/or national Federal rate per discharge.If
With respect to our proposed modification of the kidney
transplantation DRG, we feel that such a lengthy transition
period would be unnecessary, given the comparatively limited
scope of the change involved and the compelling need to introduce
greater efficiency to the field of organ acquisition.
In view of that consideration and the fact that HCFA would have
to consider a number of other factors associated with the
proposed DRGvs,such as the basis for any waivers and the role of
the Medicare fiscal intermediary for the IOPAvsand IL1s,we
offer the following recommendation:
     o   HCFA should beain full im~lementationof the
         transplant-acauisition DRGts as soon as
         practical.
Many of the transplant coordinators, surgeons, and IOPA and
laboratory directors with whom we met were quite supportive of
the concept of a DRG for organ acquisition. At the same time,
they and others raised concerns about unintended effects that
could be associated with it. In the quest to achieve savings,
some RTCts,they noted, might be inclined to take a more con-
servative posture toward organ retrieval, to downplay immuno-
logical considerations that can have consequences for the
long-term viability of a transplant, to become too restrictive in
determining who is allowed on a transplant waiting list, and to
show even less interest in obtaining kidneys through the national
network.
Just as with the DRG system in general, there must be regular
oversight to assure that the payment mechanism does not trigger
harmful, unintended results. The peer review organizations, the
hospital peer review committees, the End Stage Renal Disease
network organizations, the State survey teams, and the newly
forming national network organization each provide forums for
such oversight. The establishment of national standards for
organ procurement would also provide an important safety valve.
In summary, we feel that the establishment of transplant-
acquisition DRGts, along the lines addressed above, offers a
prime opportunity for a policy initiative that can save Medicare
dollars without adversely affecting the quality of care. The
scope of the savings is, of course, impossible to determine
precisely, but reasonable estimates can be made.
In that regard, we have two bases for estimated savings for the
proposed kidney transplantation-acquisition DRG. One concerns
those savings that would result from the substantially reduced
wastage rates which a DRG would almost certainly generate. We
estimate that in its first year, the new DRG would be responsible
for a reduction of at least 5 percentage points in the overall
rate of kidney wastage.    his reduction, during that one year,
would generate an estimated Medicare cost savings of
$30.1 million over a five year period. l5
A second category of savings would be that represented by
increased efficiency and economy in organ acquisition systems and
by a Federal payment that takes this into account. In that
context, if the Federal ~edicarepayment per transplant were
reduced from an estimated $14,800 to $14,000, about 5 percent,
the first year ~edicarecost savings would be $ 7 . 4 million.16
Thus, without even considering any cost savings associated with
heart or liver acquisition, the inclusion of organ acquisition in
the Medicare prospective payment system would generate in its
first year an estimated Medicare savings of at least $ 3 7 . 5
million. ($30.1 million plus $7.4 million).
Simultaneous with the development and implementation of the D R G f s
as noted above, we feel that some consideration should be given
to how a capitated financing/reimbursement approach might be
applied to organ transplantation and acquisition. In this
regard, a demonstration effort involving a few experienced renal
transplant centers would be particularly desirable. It would
afford an opportunity to gain some valuable insights about the
workings and impact of such a system.
Accordingly, we conclude with the following recommendation:
     0    HCFA should sumort some demonstrations of a
          cawitated amroach to Medicare reimbursement
          for kidney transplantation and acuuisition.
Such demonstrations might involve providing the RTC with a
capitated amount per transplant that would cover acquisition,
transplantation, and certain post-transplantation costs for up to
three years. With the post-transplant care included in the
capitated payment, the RTC would have a significant stake in the
longer term viability of a transplant.
                               APPENDIX I
                       BACKGROUND AND METHODOLOGY
    Over the past few years, the subject of organ acquisition has
    become an increasingly important and controversial one. News-
    paper reports, television news shows, radio talk shows, Congres-
    sional hearings, and other sources have been raising hard ques-
    tions about the adequacy of current systems for obtaining and
    distributing cadaver organs and tissues that will be used for
    transplantation.
    Because of these questions and the Medicare program's significant
    stake in the condition of the country's organ acquisition
    systems, the Office of Inspector General has undertaken a broadly
    based study of these systems. Its overriding purpose is to
    promote a better understanding of them in terms of their effec-
    tiveness, efficiency and equity, and to identify policy direc-
    tions that might be taken to promote these ends.
    The study, which was initiated in January 1986, has involved
    three major modes of inquiry:
    o    Reviews of literature and data bases, including journal
         articles, books, governmental reports and statistical
         compilations of public and private organizations.
         Particular attention has been devoted to the review and
         analysis of 1984-1985 cost reports submitted by HHS
         certified independent organ procurement agencies and by
         Medicare certified transplant centers, and to the
         review of documents and reports generated by the Organ
         Transplantation Task Force established by the National
         Organ Transplant Act of 1984.
    o    Visits to 16 cities, focusing on reviews of the organ
         acquisition practices in those cities. These involved
         discussions with transplant surgeons and coordinators,
<        nephrologists, immunologists, procurement agency
         directors, fiscal analysts, ESRD network directors and
         others associated with organ acquisition and transplan-
         tation. The cities visited were: San Francisco,
         Los Angeles, Denver, Chicago, Minneapolis, Nashville,
         Houston, Dallas, San Antonio; Miami; Richmond;
         Charlottesville, Philadelphia, New York, Boston, and
         Washington, D.C.
    o    Telephone discussions and selected visits with various
         individuals knowledgeable about organ acquisition
         practices and issues. These included representatives
         of organizations, such as the South-Eastern Organ
         Procurement Foundation, and the American Council on
         Transplantation; many of the members of the task force;
         academics; and various officials in the Department of
     Health and Human Services, most especially in the
     Public Health Service and the Health Care Financing
     Administration; and others.
This report is the third of a series of reports presenting the
findings and recommendations of the study. The first report,
issued in August 1986, is titled "The ~ccessof Foreign Nationals
to U.S. Cadaver Organs.It The second, issued in November 1986, is
titled #@TheAccess of Dialysis Patients to Kidney Transplan-
tation.
In each of these reports primary attention is given to kidney
acquisition. This is because there has been much more experience
and activity concerning renal than non-renal organs. Congress
has extended Medicare coverage on a near universal basis to those
requiring dialysis and transplantation since 1972. During that
time more than 50,000 kidney transplants have been performed in
the Unites States, the majority of which have involved the use of
cadaver kidneys.
In the years ahead, however, transplantation of non-renal organs,
especially hearts and livers, will become especially prominent
given the continued advances in technology and the fact that
Medicare now covers liver transplants for Medicare eligible
children with biliary atresia and will be covering heart trans-
plants for Medicare eligible individuals meeting specified
medical criteria. This prospect for accelerated growth is
suggested by the fact that the number of both heart and liver
transplants doubled between 1984 and 1985, and from 346 to 719 in
the case of hearts and from 308 to 602 with respect to livers.
In that period, the number of kidney transplants performed in the
United States rose from 6,968 to 7,965.
Thus, the problems encountered and lessons learned concerning
kidney acquisition have broader relevance to organ acquisition
generally. There are some distinguishing characteristics between
non-renal and renal acquisition (not the least of which is that
non-renal organs must be made available for transplantation much
more quickly). But there are also important commonalities, among
which is the fact that the same organizations typically handle
renal and non-renal acquisition. Accordingly, the findings and
recommendations of this study, although focused on kidneys, have
significance for organ acquisition in general.
                              APPENDIX I1
                          METHODOLOGICAL NOTES
    We include this section to inform the interested reader about the
    assumptions and approaches used to obtain our estimated numbers.
    It is directed primarily to those already knowledgeable about the
    existing data bases concerning organ procurement costs.
    We stress that in some cases the estimates rest on a stronger
    foundation than others. We also urge that the reader recognize
    that we focus on Medicare expenditures rather than overall costs
    and that we reconcile data from different reporting periods.
    Thus for instance, we develop fiscal year estimates for the
    transplant activity data compiled on a calendar year basis by the
    annual HCFA Facility Survey. We do that in order to compare it
    more directly with the cost data that is compiled on a fiscal
    year basis.
    We recognize the imperfections in this methodology. At the same
    time, we feel that the resulting estimates, inexact as they are,
    add valuable clarity to a cost picture that was heretofore
    extremely blurred.
    The following explanations refer to citations in the textual
    material :
    11   With respect to the ~edicareexpenditure on transplantation
    we obtained the $138 million total from HCFA. The average
    Medicare expenditure for inpatient services was determined by
    dividing the $138 million by 6,904, the estimated number of
    Medicare reimbursed kidney transplants during FY 1985.
    We developed the estimate of 6,904 Medicare reimbursed kidney
    transplants for FY 1985 as follows. We took the 7,695 trans-
    plants reported in the HCFA facility survey for CY 1985 and
    subtracted from that total the 603 nonoMedicare transplants
    reported in the survey for CY 1985. That resulted in a total of
.   7,092 Medicare reimbursed kidney transplants for CY 1985. For
    CY 1984, the comparable total, using the same methodology, was
    6,339, 753 less than the CY 1985 total. 'TO obtain an estimated
    total for FY 1985, we then subtracted 188 (one-fourth of 753)
    from the CY 1985 total of 7,092. Thus, the estimate of 6,900.
    With respect to the Medicare expenditure on kidney acquisition,
    we developed an estimate of $102.1 million on the basis of our
    review of the cost reports of individual transplant centers
    (RTCts). For the 140 RTC cost reports we obtained, we determined
    the net amount spent by Medicare by adding the amount on line 56
    of the D-6 cost reports. Then, we projected what the total would
    be for 151 RTC1s, if the additional 11 reflected the average net
    cost of the 140. The 151 total was determined, after discussions
    with HCFA, to be the number of active RTCts during FY 1985.
    Most of these cost reports, it must be emphasized, were unaud-
    ited. Thus, some discrepancy is likely between our totals and
    those that would be obtained subsequently from a full set of
    audited cost reports.
    21   Actually, there is also a fourth major type of provider:
    donor hospitals. However, the acquisition costs incurred by
    these hospitals are incorporated in RTC and IOPA cost data and
    cannot be fully isolated from that data. We estimate that in
    FY 1985, they accounted for about $8 million or about 8 percent
    of overall kidney acquisition expenditures.
    We developed that estimate as follows. From Aetna cost report
    data, we determined that IOPA1spaid about $5.1 million to donor
    hospitals during FY 1985. We then assumed that RTC1s, for the
    kidneys they retrieved on their own, paid donor hospitals at a
    parallel level (though it may very well be higher). Thus, since'
    RTCts retrieved about 41 percent of all kidneys retrieved in
    FY 1985, we increased the $5.1 miilion by that proportion. That
    resulted in a total of $8.64 million for donor hospitals. We
    then reduced that total by 5 percent to account for non-Medicare
    revenue, leaving a total of 8.21 million.
    31   For the allocation of expenditures on cadaver and living
    related, we started with Aetnals FY 1985 total of $43.4 million
    in reimbursable cost for independent organ procurement agencies
    (IOPA1s). We then reduced that by 5 percent, since about 5
    percent of that would subsequently be reimbursed by non-Medicare
    sources. Thus, we estimated that the Medicare expenditures on
    IOPA acquired kidneys was $41.2 million.
    Next, we developed a counterpart estimate for the expenditure on
    independent laboratories doing pretransplant work. We started
    with Aetnats total of $10.1 million in reimbursable cost for FY
    1985, reduced that by $1 million to account for an estimated
    double counting that appears in the IOPA total, and then another
    5 percent to account for non-Medicare revenue. Thus, we
+   estimated that the Medicare expenditure on IL1swas $8.6 million.
    Finally to determine the total for RTCts,we subtracted the IOPA
    and IL estimated totals indicated above from the $102.1 estimated
    total for all Medicare kidney acquisition expenditures indicated
    in Footnote 1.   his resulted in an estimated $52.3 in RTC
    expenditures.
    For the allocation of expenditures on cadaver-only transplants,
    we subtracted the estimated total acquisition expenditure for
    living related transplants from the estimated $52.3 million total
    for RTC1s and $8.6 million for IL1s. On the assumption that
    living related transplants accounted for about 24 percent of all
    transplants for FY 1985 (as was the case for CY 1985), we
    estimated that there were 1,657 living related transplants in
    FY 1985. We then multiplied that total by $14,800, the estimated
 Medicare expenditure for acquisition per transplant. This
 resulted in an estimated $24.5 million for living related
 acquisition costs.
 Thus, subtracting $24.5 million from $102.1 million (the esti-
 mated total for all Medicare kidney acquisition expenditures)
 resulted in an estimated total of $76.5 million for cadaver-only
 acquisition expenditures. Since IOPA1s are involved only with
 the acquisition of cadaver organs, their total remained at $41.2
 million. For the IL8s,we estimated that 10 percent of their
 $8.6 million expenditures were on living related donations; thus
 $7.7 million for cadaver-only. Finally, we subtracted the total
 for IOPA1sand IL8s ($48.9 million) from the $76.5 estimated
 total above to obtain our estimate of 27.6 million in Medicare
 reimbursed expenditures incurred directly by RTC8s for the
 acquisition of cadaver kidneys.
 41   Our number for active HOPA1s (57) comes from a compilation
 made by the Office of Organ Transplantation in the Public Health
 Service in July 1985.
 51   The 47 percent, it should be recosnized includes all
 acquisition expenses--both cadaver and-living-related--for these
 RTC1s.
 61   We arrived at the $20-milliontotal as follows: As already
 noted, Medicare expenditures for IL1s were $8.6. Given that the
 number of active RTC tissue typing laboratories is at least equal
 to the number of active IL1s and that they perform most of the
 pretransplant lab work for living related transplants, we assumed
 that the RTC lab expenditures were at least equal to the $8.6
 total above. Then, we added $2.7 million, which reflects
 Medicare expenditures for lab services that are incorporated in
 IOPA cost reports. Thus $8.6 + $8.6 + $2.7 = $19.9 million.
 71   For the IOPA1s,the wasted kidneys include all those identi-
 fied by Aetna as 18non-viable.m The percentage is based on only
'those kidneys reported by IOPA1s as procured locally.
 For the HOPA1s, the wasted kidneys include all those identified
 by the HCFA facility survey as "not used." This includes kidneys
 that were either discarded or sent overseas.
 Since at least 200 were sent overseas, one might then conclude
 that the HOPA wastage data provided in this table actually
 over-represent the number of kidneys actually wasted. But in
 fact, it may actually under-represent the number, because in our
 field work we found that some transplant centers consistently
 under-reported the number of excised kidneys that were not used.
 81   "Analysis and Evaluation of the United States Organ
 Procurement System: Hospital and Independent Agencies
 Compared.I8 Health Policy Center, Brandeis University, February
 1984 (~evisedJune 1984), p. 50.
91   An estimated 5,247 Medicare reimbursed cadaver transplants
were performed in FY 1985 (76 percent of 6,904--see footnote 1).
With a wastage rate of 14 percent, 6,101 kidneys would have had
to have been procured to account for the 5,247 cadaver trans-
plants. If the wastage rate had been 5 percent, 305 would have
been wasted (5 percent of 6,101) instead of 854 (14 percent of
6,101). This represents an additional 549 transplants that would
have been performed (854 minus 305) or a total of 5,796 (5,247
plus 549).
Thus, $76.5'million (the total FY 1985 Medicare expenditure for
cadaver transplants) divi,ded by 5,796 equals $13,199--the kidney
acquisition cost per cadaver transplant if there had been a
5 percent wastage rate. $76.5 million divided by 5,247 equals
$14,580--the kidney acquisition cost per cadaver transplant with
a 14 percent wastage rate.
101   See Prottas, p. 49.
111. Each transplant of a Medicare beneficiary generates an
estimated five year cost savings of $75,000 (for an explanation
of the methodology used in deriving this $75,000 estimate, see
Appendix I1 of our August 1986 report entitled ItThe Access of
Foreign Nationals to U.S. Cadaver Organs).
121   See Prottas, p. 50.
131 We say "at leastt1because, as noted, it appears that a
substantial number of the kidneys that some RTC1s harvest and do
not use. are not reported by them as being wasted.
141   See Prottas, p. 10.

151 We base the estimate on the period between October 1, 1987
and September 30, 1988 and assume that during that period and the
preceding periods of October 1, 1986 - September 30, 1987 and
October 1, 1985  -September 30, 1986, the rate of Medicare
reimbursed cadaver kidney transplants would increase at the same
rate that all cadaver transplants increased between CY 1984 and
CY 1985: 10 percent. Such a rate of increase would result in
5,772 Medicare reimbursed cadaver transplants in FY 1986 (5,247
plus 10 percent increase), 6,349 in FY 1987 (5,772 plus
10 percent increase); and 6,984 in FY 1988 (6,349 plus
10 percent).
With a wastage rate of 14 percent, organ procurement agencies
would have to procure 8,121 kidneys to account for 6,984 cadaver
transplants. This involves the wastage of 1,137 kidneys. If the
wastage rate were 9 percent, 731 kidneys would have been wasted
(9 percent of 8,121) instead of 1,137 (14 percent of 8,121).
This represents an additional 406 transplants that could be
performed (1,137 minus 731) for a total of 7,390.
By multiplying 406 by $75,000 (see footnote ll), we obtain the
estimated five year savings of $30.1 million.

161 Here we refer to cadaver and living related transplants
because the proposed DRG would .encompass acquisition costs for
each of them. We base the estimate on the period between
October 1, 1987 and September 30, 1988 and assume that during
this period the rate of both cadaver and living related
transplants would increase at the same rate as between CY 1984
and CY 1985: 10 percent. Such a rate of increase would result
in 7,594 Medicare reimbursed transplants in FY 1986 (6,904 plus
an increase of 10 percent) and 8,353 in FY 1987 (7,594 plus
10 percent), and 9,188 in FY 1988 (8,353 plus 10 percent).
Multiplying $14,800 (estimated Medicare payment per transplant in
FY 1985 by 9,188 yields $136.0 million. Multiplying $14,000 (the
estimated per transplant payment noted in the text) by 9,188
yields $128.6 million. The difference between the two totals--
$7.4 million--is the estimated savings.
                              APPENDIX 111
                      HCFA. AETNA, PHs, AND ASPE
                      COMMENTS ON THE DRAFT REPORT
                    AND OIG RESPONSE TO THE COMMENTS

    We received comments on the draft report from the ~dministrator,
    Health Care Financing Administration (HCFA), the Manager of
    Medicare Administration, Aetna Life Insurance Company (which
    serves as the single Medicare intermediary for independent organ
    procurement agencies), the Deputy Assistant Secretary for Health
    Operations, and Director, Office of Management in the Public
    Health Service (PHs), and the Assistant Secretary for-Planning
.   and Evaluation.
                         HCFA AND AETNA COMMENTS
    The HCFA and Aetna comments focused on the recommendations and in
    both cases tended to be supportive. In a cover memorandum, the
    HCFA Administrator stated: "We find the recommendations
    generally to be sound and supportive of our efforts to examine
    the access and cost issues related to organ pro~urement.~~ The
    Aetna representative, who dealt primarily with the
    recommendations calling for acquisition costs to be included in
    DRG 302, noted that the recommendation Ithasmany merits.I1 Both
    respondents, however, raised a number of detailed, operational
    concerns about how the recommendations would be carried out.
    Their comments, in full, were as follows.
    HCFA COMMENTS
    OIG ~ecommendation
    HCFA should amend the current DRG for kidney transplantation
    (DRG 302) to include all costs associated with acquisition as
    well as transplantation. Further, it should take the same
    approach with respect to heart, liver, and any other type of
    organ transplant that might be covered under Medicare in the
    future.
    HCFA Comments
    We agree in principle to a prospective payment approach for
    kidney acquisition. However, we have some underlying concerns
    regarding the effect a DRG prospective payment system may have on
    the supply of kidneys for transplantation. There is reason to
    believe that kidney transplantations or, for that matter, any
    other form of organ transplantation would decline if capitation
    was instituted. Further, many persons believe that the success
    of the organ procurement program to date has been because of the
    flexibility of the reimbursement system. We are not as
    optimistic as the OIG that access to organs, already in short
    supply, would not be adversely affected by the amended DRG.
A more rigorous OIG analysis of these assertions would be
helpful. Since kidney procurement costs represent a significant
expenditure to the ~edicareprogram, and other internal organ
procurement costs (hearts and livers) are not as significant to
the Medicare program, we believe that it is premature to agree to
use the same prospective payment approach for all types of
organs.
We also have several operational problems that need to be
resolved before a DRG system for kidney acquisition could be
implemented.
         A potential problem exists with respect to the use of
         organ procurement agency (OPA) charges in recalibrating
         the DRG. since ~edicareis basically the only payor of
         OPA kidneys, recalibrating the DRG using charges may
         result in exorbitant charges to Medicare. Currently
         the Medicare intermediary sets the charge for each
         institution, but once the cost reimbursement system is
         abandoned, we would no longer predetermine these
         amounts. The independent OPA charge to the renal
         transplant centers (RTCs) becomes a cost to the RTC.
         Since the cost of organ acquisition would constitute
         from 3 3 percent to 50 percent of the DRG amount, an
         improper OPA charge could dramatically impact on our
         payment rate.
          Currently Medicare does not have adequate data to
          establish a reasonable amount for kidney acquisition in
          the kidney transplant DRG. Even though the OIG has
          determined that $14,800 should be added to the DRG, the
          report indicates (pages 3 and 4) that the organ
          acquisition data are inadequate. There is even less
          data available on organs other than kidneys.
          We are also concerned about transportation services.
          Transportation costs are expensive and will influence
          the overall DRG rate. Some transplant centers use
          virtually all locally retrieved kidneys while others
          import kidneys extensively from other areas. It will
          be necessary to review more closely these costs to
          determine the impact they have on a DRG.
We will be investigating these issues to determine the potential
effects on an amended DRG. Until these questions are resolved,
we cannot agree to implement the OIG proposal.
OIG Recommendation
In determining the Federal payment rate for the kidney
acquisition component of the transplant-acquisition DRG, HCFA
should ensure that it (1) takes into account the unnecessary
costs reflected in the current kidney acquisition expenditures,
(2) is based on the cost per kidney transplanted rather than
retrieved, and ( 3 ) includes living-related as well as cadaver
acquisitions.
HCFA Comments
Once again, we agree in principle with this recommendation.
However, the problems mentioned in the draft report are the very
reasons we are unable to implement a DRG at this time. Once we
can obtain adequate cost data, we will begin to review the OIG
proposals. We would be interested in seeing a cost-benefit
analysis of paying only for kidneys that are transplanted, and
not all of those which are retrieved. If retrieval is
discouraged in cases in which an organ has only a small chance of
being successfully transplanted, losing out on that "small
chancew may result in unnecessary costs for patients whose
transplantation procedures would be delayed further.
If the same DRG price is paid for living-related and cadaver
acquisitions, it might be possible that new negative incentives
will be introduced. Cadaver acquisitions are less expensive tha
living-related acquisitions, and paying the same price for both
would encourage cadaver harvesting and discourage living-related
acquisitions. The potentially harmful effect of this
reimbursement change on the quality of transplantable organs
deserves further study.
OIG Recommendations
HCFA should begin full implementation of the transplant-
acquisition DRGs as soon as practical.
HCFA Comments
We agree.with the OIG recommendations, but must qualify our
response by stating that we currently have data for one year only
on RTC organ acquisition services and costs. In a year's time we
will re-evaluate our position to determine if the additional data
available are reliable enough for use in the DRG. It may be
necessary to perform an audit of RTCfs costs to ensure adequate
data for establishing a DRG.
OIG Recommendations
HCFA should support some demonstrations of a capitated approach
to Medicare reimbursement for kidney transplantation and
acquisition.
HCFA Comments
We currently have a demonstration project with El Camino Hospital
in Santa Clara, ~aliforniathat is determining the feasibility of
an all-inclusive capitation rate for ESRD services. his rate
would include the costs of transplants and kidney acquisition, as
well as any other ESRD service that would be required.
Also, we recently received a grant application for a large scale
demonstration project to test ESRD capitation, which is under
consideration for possible funding.
    General Comments
    o   You should also be aware that we have recently made
        several changes to improve fiscal oversight of kidney
        acquisition costs. We have developed a new cost report
        that allocates costs by organ and identifies offsets,
        such as revenues collected by an OPA from other payors,
        which is estimated to save $1 million. We have advised
        OPA1s that they must increase their efforts to collect
        revenues from other sources. Finally, we have
        tightened our requirements to collect revenues for
        organs that are shipped to foreign countries with
        estimated savings of up to $1 million.
        As the OIG report indicates, Aetna is the Medicare
        fiscal intermediary responsible for auditing the cost
        reports of all independent OPA1s. The OIG report
        states that Aetna has developed expertise in the area
        of kidney acquisition costs and that its audit of
        independent OPA1s appears ,tobe more extensive than
        those audits of RTC1s conducted by other
        intermediaries. This-infersthat further
        specialization in this area to include the OPA1s based
        in RTC1s might be advisable.
        We examined this issue in 1985 and decided against
        designation of intermediaries for RTC-based OPA1s
        because there is no specialized bill processing
        function. That is, payment for organ acquisition
        activities is made on the basis of settled cost
        reports. Also, it is difficult to identify OPA1s based
        in RTC1s. Once a hospital is certified as a transplant
.       center, itorgan
        engage in  does acquisition
                        not need separate certification
                                    activities.         to
                                                 Medicare
        regulations specify four functions that an entity must
        perform in order to be classified as an OPA. Some
        RTC1s perform only some of these functions.
    o   Some of the problems with wastage of organs that the IG
        has identified will be addressed once OBRA Section 9318
        is implemented in October 1987. These provisions
        require hospitals and organ procurement agencies to
        become part of a nationwide organ procurement network.
    o    Comparisons with European countries   as to the percent
         of wasted organs may be inequitable   because the United
         States tends to have more stringent   standards regarding
         the number of hours between when an   organ is acquired
         and when it is transplanted.
AETNA COMMENTS
I wish to thank you for the opportunity to comment upon the
report on acquisition costs. As you know, we took part in
several meetings.with Mr. Yessian during the course of the
analysis; and we concur with the majority of the statements made
in the report.
The recommendation of placing the acquisition cost in DRG 302 has
many merits. Once established, it places the burden of cost
containment totally at the RTC level and HCFA is relieved of the
day to day cost control efforts. Ultimately, if the RTC cannot
break even or produce a profit on a transplant it may decide to
leave the field.
There are some considerations that we believe should be taken
into account when the DRG proposal is presented.
1.   The Prospective Payment System, when fully phased in,
     will be based upon a national rate adjusted by MSA
     specific wage indexes. The relative weight for DRG 302
     would be consistent for all providers nationwide and,
     therefore, the only difference between a payment for a
     transplant in Omaha, Nebraska and Boston, Massachusetts
     will be the labor wage index.
     We question whether this mechanism is equitable given
     the following:
     A.   Kidneys are shared nationwide and the amounts
          paid by the RTC's vary. Locally procured
          organs are usually the least expensive and an
          RTC that relies on imported organs could be
          at a severe financial disadvantage. For
          example, all kidneys currently shared through
          SEOPF cost $10,500.
     B.   The retrieval rates in many areasvary widely
          from year to year due to poor local economic
          conditions (less travel), bad publicity which
          decreases consent, political problems between
          hospitals, physicians and/or the OPA.
     C.   The supply of kidneys, though adequate for
          non sensitized patients, is limited. It is
          not a truly free open competitive market.
          The PPS was designed to function best in a
          competitive hospital environment where all
          RTC1s have equal access to resources,
          supplies, and control over their operational
          policies.
                Thus, although a DRG based philosophy would
                solve many of the concerns the long range
                effects must be looked at.
    2.   Although the hospital cost reports have been refined in
         the analysis of acquisition cost, we believe that it is
         still inadequate to construct a reasonable DRG weight.
         Many RTC1s do not allocate coordinator's salaries and
         other costs to extra renal organs; and the use of
         inaccurate data to establish a weight would be unfair
         to those centers that have been properly accounting for
         non renal acquisitions.
    3.   The problem of wastage does not appear to be directly
         related to the method of reimbursement. A small
         percentage of organs are discarded due to surgical
         error; some have anatomical problems and many are lost
         due to the lack of recipients.
         The lack of recipient issue has several variations.
         Although the supply is limited, there are adequate
         numbers for non sensitized patients. In fact, both
         patients and surgeons have rejected organs because the
         match was not quite to their liking and a better one
         would be available soon. Further, the surgeons
         consistently reject organs over 30 hours old for
         reasons of liability. Unless the patient is critical,
         the issues of organ age and typing match play a key
         roll.
         Within a DRG based system, the premise that surgeons
         would utilize more organs because of reimbursement, and
         override their concerns on age, typing and liability
         needs to be investigated.
         Whether or not a DRG based system is used the question
         of an excessive number of laboratories needs to be
4
         addressed as well as the frequency and type of tests
         routinely performed. The DRG may be effective in
         reducing cost but HCFA will still be the major payor of
         kidney transplants so that the need to reduce those
         costs will remain a priority. The certification and
         need for the service should be reviewed prior to
         certifying renal tissue typing labs.
         The capitation project approach could be a first step
         to determine how such a fixed reimbursement system
         would function as well as provide valuable data to
         HCFA   .
    We share your concerns on the cost of organ acquisition, espe-
    cially the proliferation and duplication of lab tests. If we can
    provide further comments, please contact us.
OIG RESPONSE
We recognize that there are various complexities which must be
addressed if the recommendations are to be carried out
effectively. The specific operational considerations raised in
both HCFA and Aetna are reasonable ones. We welcome HCFAts
resolve to address them and would be happy to lend whatever
assistance possible.
At the same time, we must underscore that kidney acquisition
costs continue to increase, that reasonable expenditures continue
to be reimbursed on a 100 percent pass-through basis, and that
with respect to laboratory expenditures there is little basis
upon which to determine if expenditures are reasonable. Further,
it is important to take into account that Section 9318 of the
Omnibus Budget Reconciliation Act of 1986 requires that as of
October 1, 1987 only one organ procurement agency can be eligible
for Medicare reimbursement in each service area. It is not clear
what kind of effect this development will have on overall costs,
but it certainly does appear to be a factor warranting
consideration.
We hope that the various operational problems can be dealt with
expeditiously enough so that in some fashion a DRG incorporating
kidney transplantation and acquisition can be introduced by
October 1, 1988. If that is still not found to be practical,
then as we note on page 14, we suggest that some cost limits be
established under the present reasonable cost framework. At a
time when the health care system in general is under considerable
pressure to contain costs, we do not feel it is proper for this
one segment, despite its overall importance, to remain completely
shielded from such pressure.
With respect to the comments on including heart and transplant
under a DRG, we agreed that the need for action is not quite as
compelling. Accordingly, we have changed our first
recommendation to make it clear that the firs step should be to
include kidney acquisition under a DRG and that heart and liver
acquisition be included in a DRG "as soon thereafter as
practical."
                          PHs COMMENTS
The PHs comments were quite critical of the report with respect
to its methodology as well as its findings and recommendations.
The comments were divided into those of a general and a technical
nature. Some of the latter concerned the need for
clarifications, which in two instances we made. Most concerned
limitations in the data reported and in the support that exists
for our findings and recommendations.
The general comments offered by PHs were as follows.
Our review of the report indicates that the information gathered
in the survey is largely anecdotal and is an expression of
opinions rather than the result of an analysis of the data
collected. The quotes in the report lack credibility since
neither the speakers1 identity nor a description of his/her
relevant level of expertise is disclosed. There is no indication
as to how this information was analyzed and used to develop the
report's findings and conclusions. The lack of data suggests the
need for better data collection and analysis on organ
transplantation rather than the propriety of policy formulation
at the present time.   The report, in effect, recommends the
collection of data after implementation of the new payment
system, rather than acknowledge a need to first determine the
facts needed to formulate such a policy.
The report addresses several medical practice issues, e.g.,
determining appropriate frequency of testing and definlng the
number of llusablewkidneys harvested. Since these issues have
not been resolved, it is premature to make recommendations on
these issues. The determination of proper medical practice is
not an area appropriately addressed by administrative bodies of
government. These issues might best be resolved by scientific
consensus development to ensure optimal transplant outcomes
rather than focus on cost effectiveness. From a medical
perspective, it is known that careful patient and organ
preparation ensure the best transplantation outcome. Considering
the cost of a repeat transplantation and costs of alternative
therapies (such as dialysis), a successful organ transplant
should ultimately prove to be the most cost effective way to
treat people afflicted by organ failure, and ensure that its
success has a very high priority.
The report states that the findings and recommendations that
resulted from the OIG investigation into the cost-effectiveness
of kidney transplantation are also relevant to the
transplantation of other organs, such as heart and liver. It is
also acknowledged that most of the experience and data are in the
kidney area and are, therefore, less well developed in other
transplant areas. Because each organ has its own
transplantation-specific considerations, the report might be more
complete with the inclusion of a separate and more detailed
discussion of these organ-specific issues. Some of the features
that distinguish liver transplantation from kidney
transplantation, for example, include fewer available donated
livers, a greater patient need (liver patients needing
transplants die without a new organ, while kidney patients can
survive on dialysis), and a lower level state-of-the-art in
transplantation methods. This last factor was mentioned in the
report as a valid reason for having a "reasonable costN pay
system for kidney transplantation while optimal methods are still
being determined. Other organs that are emerging as new
frontiers in transplantation, such as the pancreas, are at an
even earlier state of definitive method development.
The report could be strengthened by inclusion of further
information about the unintended consequences of procuring and
preparing organs for transplantation at a fixed fee. For
example, if organs were acquired at a fixed fee, how would this
affect the incentive to obtain organs? Would there be a lowered
incentive to get organs for older patients or for those with a
less than optimal prognosis? Might hospitals act in ways that
would be money-saving only at the expense of the welfare of those
receiving organ transplant? For example, how would the fixed fee
affect a hospital's motivation to fully prepare organs for
transplantation, do appropriate tissue typing, and prepare the
patient immunologically--that may not be cost-effective at a
fixed fee?
Considering kidneys harvested from cadavers and those donated
from living relatives tocrether in determining a fixed fee for
kidney transplantation could change the balance between the use
of live and cadaveric donors since live kidneys are less
expensive than those harvested from cadavers. Such changes could
have serious repercussions in the ways kidneys are obtained and
in the motivation to donate organs.
The report should also include a more complete definition of
organ acquisition costs in the executive summary since the broad
range of costs covered by the term as it is used in the report
may not be readily apparent to those reading only the executive
summary.
OIG RESPONSE
In reference to the minimal data on transplant areas other .than
kidneys, we have, as noted earlier, amended our DRG
recommendation to call for heart and liver'acquisition costs to
be included under a DRG as soon as practical after kidney
acquisition costs are -so included.
With respect to the criticisms of the methodology, we
acknowledge, as we did earlier in this report, that there is
limited data available on organ acquisition costs. Our study was
based on a careful review and synthesis of the available data
sources and on extensive, well-documented discussions with
individuals directly involved with organ acquisition. We
recognize the limitations of this approach. At the same time, we
feel that it generated insights that make it quite clear that
kidney acquisition is not being handled in an efficient or
economical manner and that some policy initiative directed to
this reality is warranted.
                         ASPE COMMENTS

The ASPE comments reflect support for the position that kidney
acquisition costs need to be closely~examined,but indicate that
the case for including organ acquisition costs under a DRG is not
sufficiently developed. The ASPE comments are as follows:
I agree with the IG that kidney acquisition costs, because of
wide variations in costs among organ procurement agencies, need
to be closely examined. However, I do not agree, based on this
report, that HCFA should move quickly to include organ
acquisition costs in the DRG for kidney transplantation. I do
believe that the Department should make efforts to collect the
data which would permit appropriate analyses to make a decision
on this matter.
The IG makes strong recomendations based on the findings
described in !!Organ ~cquisitionCosts: An 0verview.I'
Unfortunately, they are based on llfragmented,incomplete, and
sometimes incorrect databasesIw and widely varying costs which
the IG has made no apparent effort to reconcile.
For example, Chart I1 indicates that kidney acquisition costs
have risen dramatically, but the data are, apparently,
uncorrected for numbers of-kidneysacquired, inflation, or air
transportation deregulation (most kidneys are transported by
commercial air without the flexibility to take advantage of
"super saversn).
Furthermore, two of the areas identified by the IG as of
particular concern, laboratory costs and costs due to wastage,
are somewhat contradictory. The contradiction lies in the tissue
typing costs incurred to make a match. A match can reduce
wastage (which would othewise occur from a failure to match) or
reduce lifetime (of the patient) transplantation costs by
assuring greater compatibility. Some studies show that greater
compatibility produces longer organ survival times and less
frequent retransplants. While clearly duplicative testing should
be avoided, the l@secretsHto which the IG alludes are probably
differences in technique and equipment which the laboratory
directors view as providing better services.
Therefore, I believe that the recommendation should be to gather
the data that will permit us to make decisions about more
efficient reimbursement methodologies, including the potential
for a DRG inclusive of acquisition costs.
OIG RESPONSE
We agree on the need to collect more information to determine how
best to include organ acquisition costs under a DRG. In this
report, we attempted to start that process. We feel that we did
make an effort to reconcile the wfragmented, incomplete, and
sometimes incorrect data bases.I1 In fact, we believe, it is the
only such effort that has been made thus far. Yet, we recognize
that more should be done.
Chart I1 was developed to promote an overall sense of the extent
of kidney acquisition expenditures and how they are allocated
among renal transplant centers, independent organ procurement
agencies, and independent laboratories.    his information was not
previously available. It took extensive review and synthesis of
different data bases to provide it. To connect the numbers for
kidneys acquired, inflation, or air transportation deregulation
may be desirable, but would take extensive further work and may
not even be possible.
Finally, in reference to the comment on how laboratory costs and
wastage costsw are somewhat contradi~tory,~~we must note that we
do not argue against the need for tissue typing. We understand
that it is important and that it may contribute to longer organ
survival times. Our comments about the duplications and
inefficiencies concerning laboratory tests are consistent with
that understanding. It is pertinent, we think, to note that in
its comments Aetna, which is responsible for reviewing the costs
of independent laboratories, reinforces our concern about
laboratory costs.
